                                U.S. Department of Agriculture
                                 Office of Inspector General
                                   Washington, D.C. 20250




DATE:          March 15, 2010

REPLY TO
ATTN OF:       03703-2-Ch (1)

TO:            Jonathan Coppess
               Administrator
               Farm Service Agency

ATTN:          T. Mike McCann
               Director
               Operations Review and Analysis Staff

FROM:          Gil H. Harden /s/
               Acting Assistant Inspector General
                for Audit

SUBJECT:       Controls Over Aquaculture Grant Recovery Act Funds – Phase 2


The American Recovery and Reinvestment Act of 2009 (Recovery Act) authorized up to
$50 million to carry out the 2008 Aquaculture Grant Program (AGP) to assist aquaculture
producers in recovering from losses associated with high feed costs during the 2008 calendar
year. Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency in the expenditure of funds. Accordingly, the Office of Inspector General (OIG)
initiated a two-phase audit of AGP. In the first phase, we determined if the Farm Service
Agency (FSA) had established adequate processes and controls to implement the Recovery Act’s
aquaculture provisions in a timely and equitable manner. In this, the second phase, we
determined if the Farm Service Agency (FSA) and participating State Departments of
Agriculture (SDA) were complying with agency procedures and with Recovery Act
requirements, and if program funds were timely distributed, if reporting requirements were met,
and if the program was being sufficiently overseen.

Based on our review of 4 of the 35 SDAs participating in the program—Alabama, Louisiana,
Mississippi, and Texas, which, together, received over $33 million of AGP’s $50 million—we
found that there was a problem with how the Alabama SDA reimbursed 4 of the 7 producers who
raised tilapia in their aquaculture operations.

Of the six Alabama producers raising tilapia who were determined eligible for the AGP, three
producers chose to feed their fish not with more expensive tilapia food, but with less expensive




Audit Report 03703-2-Ch (1)                                                                        1
catfish food.1 However, when the Alabama SDA reimbursed these producers for the increase in
feed costs, it used the price of tilapia feed instead of the price of catfish feed. Since the goal of
these payments is to recompense producers for the spike in feed costs, we maintain that these
producers should have been reimbursed for the type of feed they actually used.2

When FSA implemented the program, it instructed each SDA to determine its State’s increase in
prices by comparing each producer’s 2008 feed price with the average price from 2003 to 2007.3
The difference in feed price could then be multiplied by the number of tons of feed the producer
purchased in 2008. This sum was used to determine the grant amount that an eligible producer
could receive under AGP.

The Alabama SDA determined that the 2003-2007 average cost of tilapia feed in Alabama was
$376 per ton, while the average cost of catfish feed was $237 per ton. When a producer applying
for the AGP stated that he paid $504.64 per ton for catfish feed, the Alabama SDA determined
that the increase in feed price was $128.64 per ton by subtracting the average tilapia feed price of
$376 per ton from the actual catfish feed price of $506.64 actually paid by the producer. Based
on the producer purchasing 12.34 tons of feed, the Alabama SDA concluded that the producer
should receive a grant of $1,587.42.4

OIG maintains that the Alabama SDA should have used the average cost of catfish feed from
2003 to 2007 in those cases where it was the type of feed the producer actually used during the
5-year base period. If the Alabama SDA had used this average for the producer discussed above,
who paid $504.64 per ton for catfish feed in 2008, the SDA would have determined the increase
in feed price to be $267.64 per ton. Based on the producer purchasing 12.34 tons of feed, the
Alabama SDA should have determined the producer’s grant to be $3,302.68.5 As a result, the
three tilapia producers were underpaid a total of $4,776.95.

Additionally, we found that another Alabama producer was judged ineligible for the program
because the SDA used tilapia feed prices instead of catfish feed prices. To be eligible, a
producer’s increase in feed prices for 2008 had to be at least 25 percent higher than the 2003-
2007 average cost of feed.6 In 2008, this producer paid $336.92 for catfish feed. The Alabama
SDA used the tilapia feed threshold of $4707 to determine his eligibility instead of the catfish
feed threshold of $296.25.8 As a result, this producer was underpaid $399.68.

In total, OIG determined that these four Alabama tilapia producers who used catfish feed were
underpaid a total of $5,176.63.



1
    The difference between “tilapia feed” and “catfish feed” is a matter of how much protein is in the food. Food fed to tilapia has more protein
    and is, therefore, more expensive.
2
    According to the Recovery Act, these funds are intended to assist producers with losses associated with high feed costs during the 2008
    calendar year (H.R. 1, Sec. 102, (d)(2)(A)). Producers are only eligible if their increase in feed costs was at least 25 percent of the 5-year
    average feed price [Grant Agreement, Section D.3.b.].
3
    Grant Agreement, Section C.5.
4
    $504.64 - $376.00 = $128.64 x 12.34 = $1,587.42.
5
    $504.64 - $237.00 = $267.64 x 12.34 = $3,302.68.
6
    Grant Agreement, Section D.3.b.
7
    $376 x 1.25 = $470.
8
    $237 x 1.25 = $296.25.

Audit Report 03703-2-Ch (1)                                                                                                                          2
When we discussed these underpayments with officials at the Alabama SDA, they stated that
they believed that using the 5-year average price of tilapia feed was correct and, thus, they did
not seek clarification from FSA. FSA Headquarters officials stated that officials from the
Arkansas SDA had contacted them about this same issue. Arkansas SDA officials informed FSA
that they determined the grant payment for tilapia producers using catfish feed based on the 5-
year average for catfish feed. FSA officials notified the Arkansas SDA that they agreed with
their process, but they did not notify other SDAs of this determination.

If this program is utilized in the future, OIG maintains that FSA needs to implement a process to
ensure that all SDAs are consistently implementing the program. Without such a process, the
agency will lack assurance that it is treating all producers equitably.

Given these problems, we recommend that FSA:

   1) Instruct the Alabama SDA to recalculate the four tilapia producers’ grant payments using
      the 5-year catfish average price and thereby correct underpayments totaling $5,176.63.
   2) Determine if other SDAs correctly calculated grant payments for aquaculture producers,
      using the guidance provided to the Arkansas SDA. Take appropriate action to correct
      any errors found.
   3) Ensure that determinations made by FSA Headquarters are provided to all participating
      SDAs if this program is funded in future years.

Please provide a written response to this letter within 5 days, outlining your proposed actions. If
you have any questions, please contact me at (202) 720-6945, or have a member of your staff
contact Ernest M. Hayashi, Audit Director, Farm and Foreign Agricultural Programs, at
(202) 720-2887.




Audit Report 03703-2-Ch (1)                                                                       3
                              USDA’S




                   FARM SERVICE AGENCY




             RESPONSE TO AUDIT REPORT




Audit Report 03703-2-Ch (1)              4
United States
Department of
Agriculture                                                                               March 29, 2010
Farm and Foreign
Agricultural
Services

Farm Service         TO:          Director, Farm and Foreign Agriculture Division
Agency
                                  Office of Inspector General
Operations Review
and Analysis Staff
                     FROM:        T. Mike McCann, Director /s/ T. Mike McCann
1400 Independence                 Operations Review and Analysis Staff
Ave, SW
Stop 0540
Washington, DC       SUBJECT:     Responding Your Memorandum Dated March 15: Controls Over
20250-0501
                                  Aquaculture Grant Recovery Act Funds Audit 03703-2-CH (1)


                     Attached is a copy of a memorandum dated March 29 from the Farm Service Agency’s
                     Deputy Administrator for Farm Programs, which responds to the subject’s
                     recommendations.

                     Attachment




                                                  USDA is an Equal Opportunity Employer
United States                                                                                 March 29, 2010
Department of
Agriculture         TO:            Philip Sharp
Farm and Foreign
                                   Chief, Audits, Investigations, and State and County Review Branch
Agricultural
Services
                    FROM:          Brandon C. Willis /s/ Brandon C. Willis
Farm Service                       Deputy Administrator for Farm Programs
Agency
Staff
                    SUBJECT:       Response to the Office of the Inspector General (OIG) Memorandum,
1400 Independence
Ave, SW                            dated March 15, 2010, Controls Over Aquaculture Grant Recovery Act
Stop-0517                          Funds – Phase 2, Audit 03703-2-CH (1)
Washington, DC
20250-0501


                    This is in response to your memorandum of March 16, 2010, requesting a written
                    response to the OIG memorandum dated March 15, 2010, Controls Over Aquaculture
                    Grant Recovery Act Funds – Phase 2.

                    Provided below are responses to the three recommendations to the Deputy Administrator
                    for Farm Programs provided in the OIG memorandum.

                    RECOMMENDATION 1:

                    Instruct the Alabama State Department of Agriculture (SDA) to recalculate the four
                    tilapia producers’ grant payments using the 5-year catfish average price and thereby
                    correct underpayments totaling $5,176.63.

                    RESONSE TO RECOMMENDATION 1:

                    The Farm Service Agency (FSA) concurs with Recommendation 1 with respect to
                    instructing the Alabama SDA to recalculate the four tilapia producers’ grant payments
                    using the 5-year average catfish feed price and thereby correcting the underpayments
                    totaling $5,176.63.

                    FSA will contact Alabama SDA, in writing, concerning this issue and will provide copies
                    of the letter to your office upon completion. Furthermore, FSA will take the necessary
                    action to reallocate $5,176.63 of 2008 Aquaculture Grant Program (AGP) funding to
                    Alabama, from the AGP national reserve, in order for Alabama SDA to provide
                    additional assistance to the four subject tilapia producers.

                    RECOMMENDATION 2:

                    Determine if other SDA’s correctly calculated grant payments for aquaculture producers,
                    using the guidance provided to the Arkansas SDA. Take appropriate action to correct any
                    errors found.
Philip Sharp
Page 2

RESPONSE TO RECOMMENDATION 2:

FSA concurs with Recommendation 2 with respect to determining if other participating
SDA’s accurately calculated AGP payments to tilapia producers, as instructed in the
guidance provided to the Arkansas SDA.

FSA will contact SDAs that provided assistance to tilapia producers and determine if
AGP payments were accurately calculated using the appropriate 5-year average feed
price. If it is determined that a SDA did not use the correct 5-year average feed price
when calculating a tilapia producer’s AGP payment, FSA will take the necessary action to
allocate additional funding to the SDA in order to provide additional assistance to the
subject tilapia producers. FSA will provide your office with the findings.

RECOMMENDATION 3:

Ensure that determinations made by FSA Headquarters are provided to all participating
SDAs if this program is funded in future years.

RESPONSE TO RECOMMENDATION 3:

FSA concurs with Recommendation 3 with respect to FSA providing all participating
SDAs with program policy determinations if AGP is funded in future years.

If an aquaculture disaster assistance program is funded in the future, FSA will take the
necessary steps to ensure that all participating States receive all program policy
determinations in a timely manner.




                                USDA is an Equal Opportunity Employer
